No. 19-1189

 

 

IN THE

Supreme Court of the United States

BP P.L.C., e¢ al.,
Petitioners,
Vv.
MAYOR AND CITY COUNCIL OF BALTIMORE,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

BRIEF OF AMICI CURIAE
CHESAPEAKE BAY FOUNDATION AND
NATURAL RESOURCES DEFENSE COUNCIL
IN SUPPORT OF RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,196 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 23, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
